                       Trends in Compliance Activities
                          Through Fiscal Year 2004

                                    March 2005

                       Reference Number: 2005-30-055




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      March 30, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report – Trends in Compliance Activities Through
                                    Fiscal Year 2004 (Audit # 200530009)


      This report presents the results of our review of statistical information that reflects
      activities of the Collection and Examination functions. The overall objective of this
      review was to provide statistical information requested by the Internal Revenue Service
      (IRS) Oversight Board and provide trend analyses of that information.
      In summary, the IRS’ overall Fiscal Year (FY) 2004 compliance efforts and results were
      mixed but showed some continuing positive changes that started in FY 2001.
      Specifically, the level of compliance activities and the results obtained in many
      Collection function areas in FY 2004 showed a continued increase and the number of
      Collection function field staff increased slightly. Most enforcement actions were higher
      in FY 2004 compared to those in FY 2003, but they have not returned to pre-1998
      levels. Enforcement revenue collected increased substantially in FY 2004, but the total
      amount of uncollected liabilities also increased. However, the gap between new
      delinquent accounts and account closures decreased slightly.
      The Collection function collected 10 percent more in FY 2004 than in FY 2003;
      however, the number of taxpayers and the amount owed on accounts in the Queue1
      increased. While this inventory is now a major source of work for Collection Field
      function employees, a significant amount may still never be worked. In addition, a
      significant number of accounts were shelved (removed) from collection inventory and
      may never be worked. The IRS received authority and will begin testing the use of
      contract staff to work some cases. It is too early to tell if the contract resources will be


      1
        The Queue is a holding file for unassigned inventory. Some of the inventory is considered lower priority, but other
      inventory is placed in the file until it can be assigned as workload for Collection function employees.
                                                          2

able to resolve a significant number of cases or whether they will continue to not be
worked.
Examination function staffing increased during FY 2004, as did the percent of tax
returns examined. The increase was mainly due to increases in correspondence
examinations of tax returns for individuals, which are conducted by mailing notices to
the taxpayer and are usually not as comprehensive as face-to-face examinations.
While the number of examinations of individuals increased overall during FY 2004, a
larger increase occurred in the coverage rate of individuals earning $100,000 and over
than for those earning under $100,000. Correspondence examination accounted for
85 percent of the examinations of individuals with incomes under $100,000 in FY 2004
and 64 percent for those with incomes $100,000 and over. In addition, yield indicators
for the Examination function continued to decrease in FY 2004 for individual income tax
return examinations.
The number of examinations of corporate tax returns continued the decrease that
started in FY 1997, decreasing a total of 75 percent since that time. The total number
of tax returns examined decreased from 1 out of 52 returns filed in FY 1997 to 1 out of
245 returns filed in FY 2004.2 This trend did turn around for examinations of larger
corporations though. The number of examinations for corporate tax returns with assets
$10 million and greater increased 34 percent during FY 2004. Yield indicators also
significantly increased in FY 2004. This improvement is mainly due to the combined
effect of the increase in the number of examinations of large corporate tax returns
(those with assets of $10 million and greater) and the increase in the amount of the tax
adjustment on those tax returns during FY 2004.
During the last few years, the IRS has been implementing reengineering suggestions
aimed at increasing effectiveness of enforcement efforts. We have conducted several
reviews of these initiatives; however, it is too early to evaluate the full impact of these
changes. Despite efforts the IRS has taken to improve its enforcement efforts, the
Government Accountability Office (GAO) continues to regard enforcement of tax laws
as 1 of the 25 high-risk areas in the Federal Government in its January 2005 update.3
The President’s proposed FY 2006 budget also addresses the issue by providing
additional funds for enforcement resources.
We made no recommendations in this report. However, key IRS management officials
reviewed it prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or


2
  The IRS attributes part of this decrease since FY 2002 to examinations of individual income tax returns as part of
the National Research Project.
3
  HIGH-RISK SERIES – An Update (GAO-05-207, dated January 2005).
                                           2

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
                      Trends in Compliance Activities Through Fiscal Year 2004




                                             Table of Contents


Background ............................................................................................... Page 1
Overall Compliance Indicators Show Mixed Results ................................. Page 1
Many Collection Function Compliance Indicators Improved in
Fiscal Year 2004 ....................................................................................... Page 2
Some Examination Function Compliance Indicators Improved; Others
Continued to Decline in Fiscal Year 2004 ................................................. Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Glossary of Terms.............................................................. Page 16
Appendix V – Detailed Charts of Statistical Information ............................ Page 18
Appendix VI – Related Treasury Inspector General for Tax
Administration Audit Reports..................................................................... Page 47
                Trends in Compliance Activities Through Fiscal Year 2004

                                  We initiated this review of nationwide compliance statistics
Background
                                  for examination and collection activities at the request of the
                                  Internal Revenue Service (IRS) Oversight Board. Our data
                                  analyses were performed in the Treasury Inspector General
                                  for Tax Administration (TIGTA) Chicago office during the
                                  period December 2004 through February 2005 using
                                  national Management Information System reports. The
                                  audit was performed in accordance with Government
                                  Auditing Standards. However, we relied on information
                                  accumulated by the IRS in established reports and did not
                                  verify its accuracy.
                                  Much of the data included in this report are a follow-up to
                                  prior TIGTA audit reports on compliance trends. See
                                  Appendix VI for a listing of these reports.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II. Detailed
                                  charts and tables referred to in the body of this report are
                                  included in Appendix V. Many of the calculations
                                  throughout the report and Appendix V are affected by
                                  rounding. All initial calculations were performed using the
                                  actual numbers rather than the rounded numbers that appear
                                  in the report.
                                  The combined Collection and Examination functions
Overall Compliance Indicators
                                  enforcement staffing declined from approximately 22,200 at
Show Mixed Results
                                  the beginning of Fiscal Year (FY) 1996 to 14,700 at the end
                                  of FY 2004, a 34 percent decrease. However, staffing
                                  increased by 5 percent during FY 2004, the first time that
                                  has occurred since prior to FY 1996. The President’s
                                  FY 2005 proposed budget provided for an increase in
                                  enforcement staffing, but the Congress did not approve the
                                  additional funding and did not include an amount to cover
                                  increased salaries due to the cost of living adjustment. As a
                                  result, attrition may again outpace hiring. The President’s
                                  proposed budget for FY 2006 again includes an increase for
                                  enforcement staffing.
                                  For some time, the number of tax returns filed and the total
                                  dollars the IRS received increased annually with the
                                  growing economy. In the past 8 years, the number of tax
                                  returns filed grew by 12 percent, from 155 million in
                                  Calendar Year (CY) 1995 to 173 million in CY 2003. From
                                  FYs 1996 to 2001, the amount of revenue received by the
                                                                                          Page 1
                 Trends in Compliance Activities Through Fiscal Year 2004

                                   IRS grew from $1.49 to $2.13 trillion, but then fell by a
                                   total of 8 percent during FYs 2002 and 2003, to
                                   $1.95 trillion.1 These were the first decreases in total
                                   revenue since FY 1983. In FY 2004 it rebounded to
                                   $2.02 trillion.
                                   The amount of enforcement revenue collected increased by
                                   15 percent in FY 2004, to $43.1 billion,2 and the amount
                                   (not adjusted for inflation) is 14 percent higher than the
                                   FY 1996 level. The increase in FY 2004 is due to a
                                   33 percent increase in the amount collected on business
                                   accounts, which was the top priority for the Collection Field
                                   function (CFf) during the year.
                                   Starting in FY 2001, the IRS began to reverse some of the
                                   downward trends in compliance indicators that had occurred
                                   in prior years. In FY 2004, some of these indicators
                                   continued to increase while others fell slightly from the
                                   prior year. Despite work the IRS is doing to improve its
                                   enforcement efforts, the Government Accountability Office
                                   (GAO) continues to regard enforcement of tax laws as 1 of
                                   the 25 high-risk areas in all of Federal Government in its
                                   January 2005 update.3 The GAO noted, “The
                                   Commissioner of Internal Revenue has made strengthening
                                   enforcement a high priority, but [the] IRS has not yet
                                   materially reversed enforcement declines.” As this report
                                   points out, this is especially true within the Examination
                                   function.
                                   The CFf Revenue Officer staffing levels increased slightly
Many Collection Function
                                   in FY 2004, with 3,789 field Revenue Officers as of the end
Compliance Indicators Improved
                                   of the fiscal year.4 However, Revenue Officer staffing is
in Fiscal Year 2004
                                   down by 36 percent from the start of FY 1996. Results
                                   from many Collection function operations showed
                                   improvement during FY 2004, while the results of other
                                   operations were not positive.
                                   Many Collection function operations showed
                                   improvement
                                   Many indicators showed positive results for Collection
                                   function compliance activity during FY 2004.

                                   1
                                     See Appendix V, Figure 1.
                                   2
                                     See Appendix V, Figure 3.
                                   3
                                     HIGH-RISK SERIES – An Update (GAO-05-207, dated January 2005).
                                   4
                                     See Appendix V, Figure 5.
                                                                                            Page 2
Trends in Compliance Activities Through Fiscal Year 2004

                      •   Total dollars collected on Taxpayer Delinquent
                          Accounts (TDA) by the Automated Collection
                          System (ACS) and the CFf employees during
                          FY 2004 was $5.1 billion, an increase of 10 percent
                          from FY 2003.5 The FY 2004 amount is up
                          40 percent from the 9-year low that occurred in
                          FY 2000.
                      •   The average amount collected per CFf staff year on
                          TDAs increased by 66 percent to $449,474 in
                          FY 2004 from a low in FY 1999.6 The increase from
                          FY 2003 to FY 2004 alone was $33,024 (8 percent).
                      •   The number of TDAs closed, excluding shelved
                          accounts, and the number closed by full payment
                          increased by 14 percent and 10 percent, respectively,
                          from FY 2003 to FY 2004.7 The FY 2004 volumes
                          are the highest levels since FY 1997.
                      •   The number of Taxpayer Delinquency
                          Investigations (TDI) closed by the ACS and the CFf
                          with a tax return secured or a tax return posted
                          increased by 16 percent from FY 2003 to FY 2004.
                  While there were still more TDA receipts than closures
                  during FY 2004, the gap between TDA receipts and
                  TDA closures narrowed again.8 The gap lowered to
                  862,355 accounts as of the end of the fiscal year, lower
                  than at the end of any fiscal year since FY 1998.
                  Use of collection enforcement tools including levies and
                  seizures increased substantially from lows experienced in
                  FY 2000.9 However, the numbers are still substantially
                  lower than their pre-1998 levels.




                  5
                    See Appendix V, Figure 9.
                  6
                    See Appendix V, Figure 8.
                  7
                    See Appendix V, Figures 14 and 15.
                  8
                    See Appendix V, Figure 12.
                  9
                    See Appendix V, Figures 17 and 18.
                                                                        Page 3
Trends in Compliance Activities Through Fiscal Year 2004

                        Figure 1: Use of Collection Function Enforcement Tools
                                          Levies                  Seizures
                       FY 96                  3,108,926                     10,449
                       FY 97                  3,659,417                     10,090
                       FY 98                  2,503,409                       2,307
                       FY 99                     504,403                         161
                       FY 00                     219,778                          74
                       FY 01                     674,080                         234
                       FY 02                  1,283,742                          296
                       FY 03                  1,680,844                          399
                       FY 04                  2,029,613                          440
                  Source: Collection Report 5000-23, Customer Service Activity Report,
                  and IRS Manual Reconciliation of Seizure Logs.

                  Some of these positive changes may be attributed to
                  management emphasis on the collection programs, including
                  the implementation of the Small Business/Self-Employed
                  (SB/SE) Division Collection Reengineering initiatives
                  during the past few years. Some changes recommended by
                  the Collection Reengineering initiatives and subsequent
                  revisions to the recommendations could have impacted the
                  collection compliance indicators. We have issued audit
                  reports on some of these changes including the case
                  prioritization, case selection process, and group manager
                  involvement initiatives. See Appendix VI for a listing of
                  these audit reports. While it appears these efforts have had
                  a positive impact on collection statistics, the Collection
                  function should continue to monitor impacts of the changes
                  to ensure the positive trend continues.
                  The results were not positive for some Collection
                  function operations
                  Some indicators showed negative results for Collection
                  function compliance activity during FY 2004.
                         •   The amount of gross accounts receivable increased
                             by 2 percent during FY 2004.10 This occurred even
                             though enforcement revenue showed a sharp
                             increase.
                         •   The number of liens issued by the CFf and the ACS
                             decreased by 2 percent.11 While the number issued
                             by the ACS increased by 1 percent, the number


                  10
                       See Appendix V, Figure 3.
                  11
                       See Appendix V, Figure 16.
                                                                                Page 4
Trends in Compliance Activities Through Fiscal Year 2004

                           issued by the CFf decreased by 5 percent.
                           However, the total number of liens issued in
                           FY 2004 was still 218 percent higher than the low
                           in FY 1999.
                  The inventory of unassigned collection cases is maintained
                  in the Queue. Except for a couple of slight dips, the number
                  of taxpayers with unpaid accounts in the Queue12 and the
                  amount owed on these accounts has steadily increased since
                  FY 1996.13 During FY 2004 the number of accounts
                  increased by 5 percent to 623,477. At the same time, the
                  amount owed increased by 12 percent to $21 billion. While
                  the number of taxpayers with unfiled tax returns decreased
                  by 13 percent to 838,090 in FY 2004, there was a large
                  increase in the number of these accounts that were shelved
                  or surveyed (removed from inventory) during the year.14
                  Although many of the cases in the Queue may be assigned
                  to be worked, a significant amount may still never be
                  worked.
                  The Queue inventory figures do not include the millions of
                  unpaid tax periods and unfiled return investigations shelved
                  or surveyed (removed) from Collection function inventory
                  during the last 4 years. From FY 2001 through FY 2004,
                  approximately 5.4 million TDAs15 with balance due
                  amounts totaling more than $22.9 billion were removed
                  from Collection function inventory. During the same
                  period, more than 12.9 million TDI tax periods were
                  removed. These cases were removed from Collection
                  function inventory because they were considered less
                  productive and may never be worked.
                  The Collection function is not able to work all of the
                  existing accounts in the Queue with current staffing, and, as
                  noted in the preceding section, the number of TDA receipts
                  is outpacing closures. If changes do not occur, a significant
                  number of cases will continue to not be worked. This
                  reinforces the need for additional resources to work the


                  12
                     An inventory of unassigned collection cases is maintained in the
                  Queue. Historically, the Queue was not a major source for active
                  workload, but was the source for 49 percent of the CFf workload during
                  FY 2004.
                  13
                     See Appendix V, Figure 13.
                  14
                     See Appendix V, Figure 10.
                  15
                     See Appendix V, Figure 11.
                                                                                 Page 5
                 Trends in Compliance Activities Through Fiscal Year 2004

                                   cases. As noted previously, the FY 2005 budget proposal
                                   for increased tax law enforcement funding was not
                                   approved. However, the President’s budget proposal for
                                   FY 2006 again requests additional funding for enforcement.
                                   In addition, legislation was passed allowing the IRS to use
                                   contract staff to work some cases. The IRS is working on
                                   procedures to implement the process and plans to start
                                   testing it later this fiscal year.
                                   The Collection function should continue to monitor these
                                   indicators to ensure they show positive results as
                                   enforcement is emphasized.
                                   Overall, the number of Examination function staff that
Some Examination Function
                                   conduct examinations of tax returns increased slightly in
Compliance Indicators Improved;
                                   FY 2004. The number of Revenue Agents (RA) increased
Others Continued to Decline in
                                   to 9,787, while the number of Tax Compliance Officers
Fiscal Year 2004
                                   (TCO) (formerly referred to as Tax Auditors) declined
                                   slightly to 987 as of the end of FY 2004.16 However, there
                                   has been a 33 percent decrease in the number of examiners
                                   in field offices since the start of FY 1996.
                                   Examinations of individual income tax returns increased in
                                   FY 2004 compared to FY 2003, but the number of corporate
                                   tax return examinations continued to decline. Additionally,
                                   examiners in the field offices are spending more time
                                   examining individual income tax returns, resulting in a
                                   decrease in the per hour yield.17 Examinations of other
                                   types of returns also showed an increase in time spent per
                                   tax return, but they showed a corresponding increase in the
                                   yield.18
                                   The Examination function also implemented changes from
                                   the Examination Reengineering initiative. We have issued
                                   reports on some of these initiatives including the field
                                   examination reengineering pilot, office audit redesign pilot,
                                   and high income tax strategy. See Appendix VI for a listing
                                   of these audit reports. While initial results were mixed, it
                                   still may be too early to realize the full impact of the
                                   initiatives that were implemented to improve the
                                   Examination function’s effectiveness.



                                   16
                                      See Appendix V, Figure 4.
                                   17
                                      See Appendix V, Figures 20 and 23.
                                   18
                                      See Appendix V, Figures 21 and 22.
                                                                                         Page 6
Trends in Compliance Activities Through Fiscal Year 2004

                  Examination of tax returns
                  When analyzing examination coverage rates, it is important
                  to recognize differences in the types of contacts that are
                  counted in Examination function statistics. Examinations
                  range from an IRS notice asking for clarification of a single
                  tax return item that appears to be incorrect (correspondence
                  examination) to a full face-to-face interview and review of
                  the taxpayer’s records. Face-to-face examinations are
                  generally more comprehensive and time-consuming for the
                  IRS and the taxpayers, and they typically result in higher
                  dollar adjustments to the tax amounts. Thus, caution should
                  be used when combining statistics from the various
                  Examination function programs and tax classes into overall
                  examination rates. In addition, the IRS uses several
                  computer-matching and automated error-checking routines
                  in the computing centers to check the accuracy of tax
                  returns. Many of these result in adjustments to tax liabilities
                  but are not included in the traditional “audit rates” and are
                  not generally reported separately as enforcement efforts.
                  The overall percentage of tax returns examined19 increased
                  by 16 percent from FY 2003 to FY 2004 and has increased
                  by 29 percent since FY 2000. However, the rate is still
                  55 percent lower than it was in FY 1996. The 29 percent
                  increase in the examination rate from FY 2000 was
                  primarily due to an increase in the number of examinations
                  of income tax returns for individuals. Examinations of other
                  types of tax returns did not change significantly or
                  continued to decrease.
                  The IRS attributed the decreases in examinations in part to a
                  decline in and a reallocation of resources.20 While
                  Examination staffing increased slightly during FY 2004, the
                  Congress did not approve the additional funds requested for
                  tax law enforcement in the FY 2005 budget which could
                  result in limited hiring and a decrease in staffing once
                  attrition and retirements are taken into account. The IRS
                  Oversight Board voiced concerns over the IRS’ FY 2005
                  budget passed by the Congress saying that the lack of

                  19
                     Percentage of examination coverage has traditionally been calculated
                  by the IRS by dividing the number of returns examined in the current
                  fiscal year by the number of returns filed in the preceding calendar year.
                  20
                     Report to Congress: IRS Tax Compliance Activities
                  (dated July 15, 2003).
                                                                                    Page 7
Trends in Compliance Activities Through Fiscal Year 2004

                  funding will cause the IRS to fall short of key goals and
                  weaken the IRS.
                  Figure 2 below compares the change in field Examination
                  function staffing to the change in examinations for all types
                  of tax returns by field employees.
                  Figure 2: Percentage Change in Field Examiners and Examinations
                                            Total Field Examiners     Total Field Examinations
                       10%

                        0%

                       -10%

                       -20%

                       -30%

                       -40%

                       -50%

                       -60%

                       -70%

                       -80%
                              1996   1997   1998     1999      2000    2001     2002      2003   2004

                  Source: IRS Data Book and Examination Table 37.

                  Continued effort to increase the examination coverage is
                  important to the effectiveness of the voluntary compliance
                  system. Studies of taxpayer attitudes show 17 percent of
                  taxpayers felt it was acceptable to cheat on their tax returns
                  in CY 2003, compared to 11 percent 4 years earlier.21 Also,
                  fear of examination is an increasing factor in influencing
                  taxpayers to report taxes honestly. In CY 2002, 29 percent
                  of taxpayers surveyed cited fear of examination as a factor
                  that influenced their voluntary compliance. This increased
                  to 37 percent in CY 2003.
                  Individual Income Tax Examinations – Overall, the number
                  of examinations of all types of individual income tax returns
                  decreased from FY 1997 through FY 2000. However, the
                  downward trend was reversed in FY 2001 when the number
                  of examinations in most categories increased from the prior
                  years. During FY 2000, only 1 in 202 individual income tax
                  returns were examined, this increased to 1 in 129 during
                  FY 2004.



                  21
                    2003 IRS Oversight Board Annual Survey on Taxpayer Attitudes
                  (dated September 2003).
                                                                                                 Page 8
Trends in Compliance Activities Through Fiscal Year 2004

                       •   The number of individual income tax returns
                           examined increased from 617,765 in FY 2000 to
                           1,007,874 in FY 2004,22 with 81 percent of those
                           examined in FY 2004 done by correspondence.
                       •   The number of examinations of individual income
                           tax returns with income under $100,000 increased
                           from 518,218 (1 in 221 tax returns filed) in FY 2000
                           to 812,778 (1 in 144 tax returns filed) in FY 2004.23
                           This increase was entirely due to an increase in the
                           number of correspondence examinations which
                           accounted for 85 percent of the examinations in this
                           income category. The number of face-to-face
                           examinations decreased by 29 percent. Only 1 in
                           1,129 individual income tax returns filed with
                           income under $100,000 receives a face-to-face
                           examination.
                       •   The number of examinations of individual income
                           tax returns with income of $100,000 and over
                           increased from 99,547 (1 in 104 tax returns filed) in
                           FY 2000 to 195,096 (1 in 68 tax returns filed) in
                           FY 2004.24 Most (91 percent) of this increase was
                           due to an increase in the number of correspondence
                           examinations which accounted for 64 percent of the
                           examinations in this income category. Only
                           9 percent was due to the increase in the number of
                           face-to-face examinations. Only 1 in 201 individual
                           income tax returns filed with income of $100,000
                           and over receives a face-to-face examination.
                  The Earned Income Tax Credit (EITC) issues made up a
                  substantial portion of the individual income tax examination
                  cases for FYs 2000 through 2004 in the lower income
                  categories and accounted for about 44 percent of the
                  examinations of individuals overall during FY 2004.
                  Excluding examinations where EITC was an issue, the
                  number of examinations of individuals with income under
                  $100,000 increased 50 percent from 250,248 in FY 2000 to
                  375,753 in FY 2004, and the number with income $100,000



                  22
                     See Appendix V, Figure 24.
                  23
                     See Appendix V, Figures 24 and 25.
                  24
                     See Appendix V, Figures 24 and 25.
                                                                          Page 9
Trends in Compliance Activities Through Fiscal Year 2004

                  and over increased 93 percent from 98,983 in FY 2000 to
                  190,929 in FY 2004.
                  Corporate Income Tax Examinations – The number of
                  examinations of all corporation income tax returns
                  decreased 23 percent in FY 2004 and has decreased
                  continuously since FY 1997, decreasing a total of 75 percent
                  since that time.25 The total number of tax returns examined
                  decreased from 93,548 (1 out of 52 returns filed) in
                  FY 1997 to 23,499 (1 out of 245 returns filed) in FY 2004.26
                  However, there was a 34 percent increase of examinations
                  of corporate tax returns with assets of $10 million and over
                  during FY 2004. While this is a notable change,
                  examinations of these returns is still down 27 percent since
                  FY 1997.
                  Partnership Return Examinations – The number of
                  partnership returns examined decreased 21 percent in
                  FY 2004, but only decreased 5 percent since FY 2000.27
                  The IRS is starting to plan a research project to study the
                  compliance of entities such as partnerships where the
                  income flows through to other entities. There is concern
                  that the Examination function will not have sufficient
                  resources to conduct a statistically valid sample of these
                  returns, even if those selected for examination through
                  normal processes are included in the results. This concern
                  could grow if there are further drops in the number routinely
                  selected for examination.
                  Other Tax Types Examinations (Fiduciary, Employment,
                  Excise, Estate, and Gift Taxes) – The overall number of
                  examinations in these 5 classes increased by 7 percent
                  during FY 2004, but is down 10 percent since FY 2000.
                  The number of examinations in each class except excise is
                  below the FY 2000 level. However, from FY 2003 to
                  FY 2004 there were increases in the number of
                  examinations of employment, excise, and gift tax returns.28



                  25
                     The IRS attributes part of this decrease since FY 2002 to
                  examinations of individual income tax returns as part of the National
                  Research Project.
                  26
                     See Appendix V, Figures 37 to 39 and Figure 50, for coverage by size
                  of corporation.
                  27
                     See Appendix V, Figures 40 and 50.
                  28
                     See Appendix V, Figures 41 to 45 and 50.
                                                                                Page 10
Trends in Compliance Activities Through Fiscal Year 2004

                  Examination function yield indicators
                  Yield indicators for the Examination function decreased
                  from FY 1996 to FY 2004 for individual income tax return
                  examinations.29 While the dollar results from examinations
                  per tax return examined fluctuated up and down during the
                  period, the number of hours used to examine each tax return
                  increased substantially. The net effect is a decrease in dollar
                  results per hour spent examining tax returns.
                  However, as the result of a drastic change during FY 2004,
                  the dollar result per hour spent examining corporate tax
                  returns almost doubled and had a net effect of a 57 percent
                  increase since FY 1996.30 This occurred even though the
                  average hours spent examining each return increased by
                  19 percent during FY 2004 and by 145 percent since
                  FY 1996. The drastic improvement in dollar results is
                  mainly due to the combined effect of the increase in the
                  number of examinations of large corporate tax returns (those
                  with assets of $10 million and over) and the increase in the
                  assessments on those tax returns during FY 2004.
                  Figure 3 shows the impact on the results per hour from
                  FY 1996 to FY 2004 for RAs and TCOs on individual and
                  corporate tax returns.
                                  Figure 3: Examination Function Yield Per Hour
                                            RA - Individual          TCO - Individual          RA - Corporate

                       $1,800


                       $1,600


                       $1,400


                       $1,200


                       $1,000


                        $800


                        $600


                        $400
                           1996      1997      1998           1999       2000           2001       2002         2003   2004

                  Source: TIGTA Analysis of Examination Table 37.

                  A large portion of the increase in hours spent examining tax
                  returns occurred since FY 2002. This could be partially
                  attributed to the type of cases that were being worked. The


                  29
                       See Appendix V, Figures 20 and 23.
                  30
                       See Appendix V, Figure 21.
                                                                                                                   Page 11
Trends in Compliance Activities Through Fiscal Year 2004

                  SB/SE Division high-priority cases31 require in-depth
                  probing in an attempt to identify unreported income and to
                  determine reporting compliance. In addition, larger
                  corporate tax return examinations are more complex and
                  require more time to complete.
                  Compliance initiatives
                  Over the last few years the Examination function has been
                  making changes to try to address taxpayer compliance more
                  effectively and efficiently. The full impact of these changes
                  may not yet be known.
                  The IRS should continue to monitor the outcome of these
                  initiatives to ensure they result in more effective and
                  efficient operations. If measures show decreases in
                  effectiveness or efficiency, management needs to reassess
                  the strategies and make changes where necessary.
                  In addition to the efficiency increases projected by the
                  initiatives mentioned above, the Commissioner has
                  indicated his commitment to improving compliance while
                  also maintaining a high level of customer service. As
                  shown previously in this report, the Congress did not
                  approve the large increase proposed for tax law enforcement
                  for FY 2005, but the President’s proposed budget for
                  FY 2006 again includes an increase to the IRS’ tax
                  enforcement budget. Additional resources should help turn
                  around the decreases in examination coverage that have
                  occurred on almost every type of tax return since FY 1996.




                  31
                    These priorities include offshore credit card users; high-risk,
                  high-income taxpayers; abusive schemes and promoter investigations;
                  high-income nonfilers; unreported income; and the National Research
                  Program.




                                                                              Page 12
                 Trends in Compliance Activities Through Fiscal Year 2004

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information requested by the
Internal Revenue Service (IRS) Oversight Board and provide trend analyses of that information.
To accomplish our objective, we analyzed the IRS’ management information reports to
determine the trends and changes in the major areas of compliance. We relied on information
accumulated by the IRS in established reports and did not verify its accuracy. The major issues
we focused on included:
   •   Enforcement Revenue and Gross Accounts Receivable.
   •   Collection and Examination functions staffing.
   •   Collection and Examination functions direct time.
   •   Collection function delinquent account inventories and unfiled return investigations.
   •   Collection function enforcement actions (liens, levies, and seizures).
   •   Examination function coverage of individual and business tax returns compared to the
       number of returns filed in each category.
   •   Examination function productivity results for individual and business tax returns.
   •   Other activity resulting in improving the accuracy of filed tax returns and filing of
       delinquent returns.




                                                                                         Page 13
                Trends in Compliance Activities Through Fiscal Year 2004

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Una K. Smith, Senior Auditor
Janis Zuika, Auditor




                                                                                       Page 14
               Trends in Compliance Activities Through Fiscal Year 2004

                                                                          Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                               Page 15
                 Trends in Compliance Activities Through Fiscal Year 2004

                                                                                      Appendix IV


                                       Glossary of Terms

Automated Collection System (ACS) – A telephone contact system through which telephone
assistors collect unpaid taxes and secure tax returns from delinquent taxpayers who have not
complied with previous notices.
Automated Substitute for Return (ASFR) system – Designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the Internal Revenue Service
(IRS) and historical tax returns information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return; used by the IRS to group businesses by the size of their
assets.
Collection Field function (CFf) – The unit in the Area Offices consisting of Revenue Officers
who handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Corporate Income Tax Returns – U.S. Corporation Income Tax Returns (Form 1120) are
returns used by corporations to report the corporate income tax.
Earned Income Tax Credit (EITC) – A tax credit for certain people who work and have
income under established limits.
Employment Tax Returns – Various Form 940 return series (primarily Form 940 and
Form 941) filed by businesses to report things such as Employer’s Federal Unemployment Taxes
and Federal Taxes Withheld.
Enforcement revenue – This is any tax, penalty, or interest received from a taxpayer as a result
of an IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706) is the form to be filed on certain estates of deceased persons.
Examination (Face-to-Face) – Field examinations of individuals, partnerships, and corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.
Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720) is used to report and pay
certain taxes such as those on transportation and fuel.
Fiduciary Income Tax Return – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709) is used to report transfers subject to the Federal gift taxes and to figure the tax
due on those transfers.
Gross accounts receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
                                                                                             Page 16
                 Trends in Compliance Activities Through Fiscal Year 2004

Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the United States.
Math Error – A program with which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in a tax change.
Partnership Returns – U.S. Return of Partnership Income (Form 1065) is used to report the
income and expenses of domestic partnerships and the share distributed to the partners.
Queue – An automated holding file for unassigned inventory of lower priority delinquent cases
that the Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – Employees in the Examination function that conduct face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes, e.g., excise tax returns.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S) is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Service Center Collection Branch (SCCB) – Mails the balance due and return delinquency
notices to taxpayers and analyzes and responds to taxpayer correspondence.
Shelved or surveyed cases – These are delinquent unpaid accounts or investigations of unfiled
tax returns that have been taken out of Collection function inventory because they are lower
priority.
Tax Compliance Officer/Tax Auditor – Employees in the Examination function that conduct
mostly examinations of individual taxpayers through interviews at IRS field offices. The
position title was changed in 2002 from Tax Auditor to Tax Compliance Officer.
Taxpayer Delinquent Account (TDA) – A balance due account of a taxpayer.
Taxpayer Delinquency Investigation (TDI) – An unfiled tax return for a taxpayer.
Tax Period – The term tax period refers to each tax return filed by the taxpayer for a specific
period (year or quarter) during a calendar year for each type of tax.
Total Gross Receipts (TGR) – The categories used for Individual Income Tax Returns with
Profit or Loss From Business (Schedule C) or Profit or Loss From Farming (Schedule F) income
based on the total receipts reported.
Underreporter – The Underreporter Program matches items reported on individual income tax
returns to information supplied to the IRS from outside sources (such as from employers, banks,
and credit unions) to determine if the taxpayer’s tax return reflected the correct amounts,
ensuring that the taxpayer’s tax amount is correct.


                                                                                           Page 17
                      Trends in Compliance Activities Through Fiscal Year 2004

                                                                                                                          Appendix V


                                 Detailed Charts of Statistical Information

Figure 1 – Internal Revenue Service (IRS) Gross Collections by Type of Tax
           Since Fiscal Year (FY) 1996.............................................................................Page 21

Figure 2 – Change in Enforcement Revenue and Gross Accounts
           Receivable – Percentage Change From FY 1996............................................Page 21

Figure 3 – Amounts of Enforcement Revenue Collected Compared to
           Growth in Gross Accounts Receivable .............................................................Page 22

Figure 4 – Examination Function Staffing at the End of Each Fiscal Year........................Page 22

Figure 5 – Collection Field function (CFf) Revenue Officer Staffing at the End of
           Each Fiscal Year...............................................................................................Page 23

Figure 6 – Staff Years Detailed to Customer Service........................................................Page 23

Figure 7 – Changes in Direct Time Percentages...............................................................Page 24

Figure 8 – Average Dollars Collected per Staff Year on Taxpayer Delinquent
           Accounts (TDA) by the CFf...............................................................................Page 24

Figure 9 – Total Dollars Collected on TDAs by the CFf and the Automated Collection
           System (ACS) ...................................................................................................Page 25

Figure 10 – Delinquent Accounts in the Queue.................................................................Page 25

Figure 11 – Delinquent Accounts and Unfiled Return Investigations Shelved or
           Surveyed Each Year .......................................................................................Page 26

Figure 12 – Gap Between New Delinquent Accounts and Account Closures ...................Page 26

Figure 13 – Number of Taxpayers and Amounts Owed in the Queue ..............................Page 27

Figure 14 – Number of Delinquent Accounts Closed Each Year, Excluding
           Shelved Accounts ...........................................................................................Page 27

Figure 15 – Number of Delinquent Accounts Closed by Full Payment .............................Page 28

Figure 16 – Liens Filed by the CFf and ACS .....................................................................Page 28

Figure 17 – Levies Issued by the CFf and ACS ................................................................Page 29

Figure 18 – Number of Seizures Made Each Fiscal Year .................................................Page 29

Figure 19 – Examination Coverage of All Tax Returns – Percentage Change From
           FY 1996...........................................................................................................Page 30

Figure 20 – Revenue Agent Results on U.S. Individual Income Tax
           Returns (Form 1040), Excluding Training Returns – Percentage
           Change From FY 1996 ...................................................................................Page 30
                                                                                                                                       Page 18
                      Trends in Compliance Activities Through Fiscal Year 2004

Figure 21 – Revenue Agent Results on Corporate Income Tax Returns, Excluding
           Training Returns – Percentage Change From FY 1996 .................................Page 31

Figure 22 – Revenue Agent Results on Other Types of Tax Returns, Excluding
           Training Returns – Percentage Change From FY 1996 .................................Page 31

Figure 23 – Tax Compliance Officer Results on Forms 1040, Excluding Training
           Returns – Percentage Change From FY 1996 ...............................................Page 32

Figure 24 – Number of Forms 1040 Examined Face-to-Face or Through
           Correspondence .............................................................................................Page 32

Figure 25 – Percentage of Forms 1040 Examined Face-to-Face or
           Through Correspondence ...............................................................................Page 33

Figure 26 – Number of Forms 1040 Examined by Compliance Center
           Correspondence .............................................................................................Page 33

Figure 27 – Number of Forms 1040 Examined by Field Offices .......................................Page 34

Figure 28 – Percentage of Forms 1040 Examined............................................................Page 34

Figure 29 – Percentage Examined – Forms 1040 With No Business or Farm Income.....Page 35

Figure 30 – Examination Coverage of Non-business Forms 1040 – Under $100,000......Page 35

Figure 31 – Examination Coverage of Non-business Forms 1040 – $100,000
           and Over .........................................................................................................Page 36

Figure 32 – Examination Coverage of Forms 1040 With Business Income
           (Excluding Farms)...........................................................................................Page 36

Figure 33 – Examination Coverage of Forms 1040 With Farm Income ............................Page 37

Figure 34 – Examination Coverage of All Corporate Income Tax Returns –
           Percentage Change From FY 1996................................................................Page 37

Figure 35 – Percentage of Corporate Income Tax Returns Examined –
           Corporations With Assets Under $10 Million ..................................................Page 38

Figure 36 – Percentage of Corporate Income Tax Returns Examined –
           Corporations With Assets $10 Million and Over .............................................Page 38

Figure 37 – Examination Coverage of Corporations With Assets Under $10 Million ........Page 39

Figure 38 – Examination Coverage of Corporations With Assets $10 Million and Over ...Page 39

Figure 39 – Examination Coverage of U.S. Income Tax Return for an
           S Corporation (Forms 1120S).........................................................................Page 40

Figure 40 – Examination Coverage of Partnership Income Tax Returns ..........................Page 40

Figure 41 – Examination Coverage of Fiduciary Income Tax Returns..............................Page 41

Figure 42 – Examination Coverage of Employment Tax Returns .....................................Page 41

Figure 43 – Examination Coverage of Excise Tax Returns...............................................Page 42

                                                                                                                                       Page 19
                      Trends in Compliance Activities Through Fiscal Year 2004

Figure 44 – Examination Coverage of Estate Tax Returns ...............................................Page 42

Figure 45 – Examination Coverage of Gift Tax Returns....................................................Page 43

Figure 46 – Other Compliance Contacts on Forms 1040 ..................................................Page 43

Figure 47 – Other Compliance Contacts – Percentage of Coverage on Forms 1040.......Page 44

Figure 48 – Numbers and Percentages of Other Compliance Contacts
            on Forms 1040................................................................................................Page 44

Figure 49 – Numbers and Percentages of Examinations on Forms 1040 ........................Page 45

Figure 50 - Numbers and Percentages of Examinations on Business Tax Returns .........Page 46




                                                                                                                                   Page 20
                                           Trends in Compliance Activities Through Fiscal Year 2004

Figure 1. Internal Revenue Service (IRS) Gross Collections by Type of Tax Since Fiscal
Year (FY) 1996. Gross tax collections overall rose slightly in FY 2004, but decreased a total of
5 percent since FY 2001. Individual income tax collections decreased by 16 percent and
employment tax collection increased by 5 percent from FY 2001 to FY 2004. Individual income
taxes make up about one-half of the total collections, while employment taxes account for about
one-third.
                         2.5



                         2.0                                                                                                     Excise Taxes


                                                                                                                                 Estate & Gift
  Trillions of Dollars




                         1.5


                                                                                                                                 Employment
                         1.0                                                                                                     Taxes

                                                                                                                                 Corporate
                                                                                                                                 Income
                         0.5
                                                                                                                                 Individual
                                                                                                                                 Income
                         0.0
                            96




                                          97




                                                   98




                                                              99




                                                                       00




                                                                                01




                                                                                           02




                                                                                                         03




                                                                                                                   04
                          19




                                        19




                                                 19




                                                            19




                                                                     20




                                                                              20




                                                                                         20




                                                                                                       20




                                                                                                                 20
 Source: Treasury Inspector General for Tax Administration (TIGTA) Analysis of IRS Data Book Information.

Figure 2. Change in Enforcement Revenue and Gross Accounts Receivable – Percentage
Change From FY 1996. Enforcement revenue increased sharply in FY 2004 and surpassed the
FY 1996 figure by 14 percent. Gross accounts receivable increased in FY 2004 and is up
32 percent since FY 1996.
                                                      Gross Accounts Receivable                   Enforcement Revenue
  35%

  30%
                                                                                                                                      32%
                                                                                  22%            28%      29%           29%
  25%
                                                                      19%
  20%
                                                           14%
  15%
                                               9%                                                                                 14%
  10%

          5%
                                                                                                                        -1%
          0%

   -5%                                         -2%
 -10%
                                                           -7%
                                                                                  -11%          -11%      -10%
 -15%
                                                                     -13%
 -20%
                                 FY96          FY97        FY98       FY99        FY00      FY01              FY02        FY03         FY04

 Source: TIGTA Analysis of Enforcement Revenue Information System and Chief Financial Officer (CFO)
 Financial Report.
                                                                                                                                        Page 21
                                      Trends in Compliance Activities Through Fiscal Year 2004

Figure 3. Amounts of Enforcement Revenue Collected Compared to Growth in Gross
Accounts Receivable. Enforcement revenue collected increased sharply during FY 2004, by
15 percent. Even so, gross accounts receivable still increased 2 percent in FY 2004.
                                                  Enforcement Revenue                        Gross Accounts Receivable

                       $46                                                                                                            $290




                                                                                                                                                       Billions
                                                                                                     $280                $285
                                                                                                                                      $280
 Billions




                       $44
                                                                                      $276                    $278      $43.10
                                                                                                                                      $270




                                                                                                                                             Gross Accounts Receivable
                       $42
                                                                           $264
 Enforcement Revenue




                                                                                                                                      $260
                       $40                                     $257

                               $37.96                                                                                                 $250
                                                     $246
                       $38
                                          $37.25                                                            $37.63
                                                                                                                                      $240
                                        $236
                       $36
                                                             $35.20                                                                   $230
                                                                             $33.80     $33.78              $34.09
                       $34                                                                                                            $220
                                      $216
                       $32                                        $32.94                                                              $210
                               FY96          FY97       FY98       FY99       FY00       FY01        FY02        FY03       FY04

 Source: Enforcement Revenue Information System and CFO Financial Reports.


Figure 4. Examination Function Staffing at the End of Each Fiscal Year. The numbers in
this chart represent the number of Examination function staff actually conducting examinations
of tax returns. For the first time in many years, Revenue Agent staffing increased during
FY 2004. However, Tax Compliance Officer (formerly referred to as Tax Auditor) staffing
continued to decline.
                                                    Revenue Agents                     Tax Compliance Officers
 14,000
                           13,857
 12,000                               12,685
                                                    11,912     11,591
 10,000                                                                    11,014
                                                                                      10,381      9,994        9,776                 9,787
       8,000                                                                                                              9,244

       6,000

       4,000
                              2,468       2,197        2,011      1,850       1,650
       2,000                                                                             1,393       1,190       1,148       1,041      987

                       0
                             FY 95      FY 96        FY 97      FY 98       FY 99      FY 00        FY 01       FY 02      FY 03      FY 04

 Source: Examination Table 37.




                                                                                                                                      Page 22
                    Trends in Compliance Activities Through Fiscal Year 2004

Figure 5. Collection Field function (CFf) Revenue Officer Staffing at the End of Each
Fiscal Year. The number of Revenue Officers working delinquent accounts increased by
8 percent during FY 2004, but is still 36 percent fewer than at the start of FY 1996.
  6,000
           5,908
  5,000              5,537       5,439
                                               4,989
  4,000                                                       4,354
                                                                                   3,792                           3,789
                                                                       3,601                     3,495   3,499
  3,000

  2,000

  1,000

      0
          FY 95      FY 96       FY 97         FY 98          FY 99    FY 00       FY 01         FY 02    FY 03    FY 04

 Source: Collection Report 5000-23.

Figure 6. Staff Years Detailed to Customer Service. The number of staff years detailed to
customer service dropped off again in FY 2004 and is lower than those detailed during FY 1996.
                                    Collection                                           Examination
  700
                                                                       646
  600

  500                                                   468


  400
                                         338                     323
                                                  288
  300

                           183                                                                   174
  200                             154                                              167

                                                                             104
               88     82
  100     78                                                                                                  60
                                                                                            43                          30
                                                                                                         15         3
    0
          FY 96      FY 97         FY 98          FY 99           FY 00        FY 01        FY 02        FY 03     FY 04

 Source: Collection Report 5000-23 and Examination Table 37.




                                                                                                                        Page 23
                       Trends in Compliance Activities Through Fiscal Year 2004

Figure 7. Changes in Direct Time Percentages. The Collection and Examination functions
both increased the percentage of overall time charged to their tax related responsibilities
(collecting taxes, securing tax returns not timely filed, and examining tax returns) since FY 2000.
The Examination and Collection functions changed what types of time they capture as direct and
indirect in recent years, including capturing some of the previous indirect time as direct. The
graph below depicts our recalculation of direct time based on direct time categories from prior
years so the data is consistent for the 9 years included in the chart.
                                              Examination                      Collection
 65%

 60%

 55%

 50%

 45%

 40%

 35%

 30%
            FY 96        FY 97        FY 98        FY 99        FY 00       FY 01       FY 02          FY 03       FY 04

 Source: TIGTA Analysis of Collection Report 5000-23 and Examination Table 37.

Figure 8. Average Dollars Collected per Staff Year on Taxpayer Delinquent Accounts
(TDA) by the CFf. The average amount collected by the CFf for each staff year increased by
8 percent from FY 2003 to FY 2004 and a total of 66 percent since FY 1999.
 $500,000



 $450,000
                                                                                                                    $449,474


 $400,000                                                                                               $416,450


                           $375,337
 $350,000                                                                                   $360,781
              $336,959                  $336,758                             $337,721

 $300,000
                                                                 $293,686
                                                     $271,110
 $250,000



 $200,000
               FY 96        FY 97        FY 98        FY 99        FY 00       FY 01         FY 02       FY 03       FY 04

 Source: TIGTA Analysis of Collection Reports 5000-2 and 5000-23.


                                                                                                                      Page 24
                                                     Trends in Compliance Activities Through Fiscal Year 2004

Figure 9. Total Dollars Collected on TDAs by the CFf and the Automated Collection
System (ACS). Except for FY 2002 when the amount collected by the ACS dropped back
slightly, the amounts collected by the ACS and CFf have grown constantly since FY 2000. Since
then, the ACS amount collected has increased by 44 percent, while the amount collected by the
CFf has increased by 39 percent.
                                                                           CFf Amount Collected                                 ACS Amount Collected

                                  $7,000,000
 Thousands of Dollars Collected




                                  $6,000,000                   $2,296,880
                                                 $2,317,426

                                                                              $2,078,191
                                  $5,000,000
                                                                                                                                                                    $1,669,735
                                                                                                                                                      $1,515,953
                                  $4,000,000
                                                               $3,984,172                   $1,442,540                   $1,275,111   $1,249,261
                                                 $3,778,441
                                                                                                          $1,159,473
                                  $3,000,000                                  $3,365,075                                                                            $3,392,249
                                                                                                                                                      $3,083,984
                                                                                                                         $2,677,226   $2,746,646
                                                                                            $2,477,034    $2,447,824
                                  $2,000,000


                                  $1,000,000


                                         $0
                                                   FY 96           FY 97          FY 98        FY 99         FY 00         FY 01        FY 02           FY 03          FY 04

 Source: Collection Report 5000-2.

Figure 10. Delinquent Accounts in the Queue. The number of taxpayers with unpaid tax
liabilities and investigations of unfiled tax returns in the Queue increased significantly from
FY 1996 through FY 2000. There were large reductions from the inventory during FYs 2000
through 2004 because the IRS used a special closing code to remove potentially less productive
cases from the Queue (see Figure 11).
                                                                    TPs with Unpaid Accounts                               TPs with Unfiled Returns
2,000,000

1,800,000                                                                                                 1,876,629

1,600,000

1,400,000                                                                                  1,282,919

1,200,000
                                                                                                                                                       959,075
1,000,000
                                                                                                                         821,188                                      838,090
                                                                                                                                      767,459
            800,000

            600,000
                                                              435,337        456,711                                                            591,372            623,477
                                                                                                       537,781        542,406      514,915
            400,000                            326,118
                                                         425,780        407,210        445,877

            200,000                     317,865

                                    0
                                           FY 96           FY 97            FY 98          FY 99         FY 00          FY 01         FY 02           FY 03          FY 04

 Source: Collection Reports 5000-2 and 5000-4.



                                                                                                                                                                        Page 25
                         Trends in Compliance Activities Through Fiscal Year 2004

Figure 11. Delinquent Accounts and Unfiled Return Investigations Shelved or Surveyed
Each Year. Since FY 1999, the IRS has used special closing codes to remove millions of
unpaid tax periods and unfiled return investigations from the Queue.
                                                 Unpaid Accounts                                              Unfiled Returns
8,000,000

                                                                                                  7,099,437
7,000,000


6,000,000


5,000,000


4,000,000


3,000,000
                                                                                                                                                   2,197,857
                                                                              1,942,929                               1,749,590    1,875,353
                                                                                           1,720,683
2,000,000
                                                                        981,255                           1,567,023
                                                                                      931,011                              1,089,580           1,020,503
1,000,000                                                         790,729
                     142,891
                                       42,956            46,349
             7,737             3,705            13,702
        0
              FY 96              FY 97             FY 98            FY 99          FY 00         FY 01           FY 02            FY 03           FY 04

 Source: Collection Reports 5000-2 and 5000-4.

Figure 12. Gap Between New Delinquent Accounts and Account Closures. The gap
between unpaid account receipts and closures decreased again for FY 2004, but the number of
receipts has been greater than the number of closures each year since FY 1997. The closures
included here do not include the unpaid accounts shelved, shown above in Figure 11.
                                                           TDA Receipts                                        TDA Closures
 6,000,000


 5,000,000


 4,000,000


 3,000,000


 2,000,000


 1,000,000


        0
               FY 96              FY 97             FY 98            FY 99         FY 00          FY 01          FY 02            FY 03           FY 04

 Source: Collection Report 5000-2.




                                                                                                                                                      Page 26
                                                Trends in Compliance Activities Through Fiscal Year 2004

Figure 13. Number of Taxpayers and Amounts Owed in the Queue. The number of
taxpayers with unpaid accounts in the Queue increased by 5 percent, while the average amount
owed increased by 12 percent from FY 2003 to FY 2004.
                                                                   Amount Owed                    Number of Taxpayers
                                  $35                                                                                                         650,000


                                  $30                                                                                                         600,000
    Amount Owed ($ in Billions)




                                  $25                                                                                                         550,000




                                                                                                                                                        Number of Taxpayers
                                  $20                                                                                                         500,000


                                  $15                                                                                                         450,000


                                  $10                                                                                                         400,000


                                  $5                                                                                                          350,000


                                  $0                                                                                                          300,000
                                        FY 96     FY 97         FY 98      FY 99      FY 00      FY 01      FY 02       FY 03      FY 04

 Source: Collection Report 5000-2.

Figure 14. Number of Delinquent Accounts Closed Each Year, Excluding Shelved
Accounts. The number of delinquent unpaid accounts closed by the ACS and CFf showed
significant increases in FY 2004. In addition, as more accounts are left in the Queue, there are
more closed after voluntary action by taxpayers while in that unassigned status.
                                                          ACS                         CFf                         Queue & SCCB

 3,500,000
          3,129,974 3,201,808
                                                                                                                                           2,922,041
 3,000,000                                                   2,814,025
                                                                                                                              2,555,754
 2,500,000
                                                                                                      2,013,562 1,975,215
 2,000,000                                                                 1,873,520 1,819,424
                                        1,696,008 1,676,949

 1,500,000                                                       1,327,863

                                                                              951,984                                             880,939     955,887
 1,000,000                                                                                   771,455     757,392     724,430
                                                                                                                                                 469,695
  500,000                                                                                                               314,124     370,217
                                                                                                           269,855
                                           164,731    133,905       146,807        128,930     180,991

                                    0
                                         FY 96       FY 97         FY 98       FY 99          FY 00       FY 01       FY 02       FY 03        FY 04

 Source: Collection Report 5000-2.




                                                                                                                                                   Page 27
                           Trends in Compliance Activities Through Fiscal Year 2004

Figure 15. Number of Delinquent Accounts Closed by Full Payment. The number of
accounts closed by full payment increased in FY 2004. There has been a steady increase since
FY 2000 for the CFf and the Queue. The ACS number dropped in FY 2002, but has increased
substantially during the last 2 years.
                                         ACS                           CFf                           Queue & SCCB
1,000,000
                901,145      893,620
  900,000
                                            793,958                                                                               784,124
  800,000                                                                                742,563                    723,659
                                                           688,622        679,872
  700,000                                                                                              644,301

  600,000
                 481,409       494,567
  500,000
                                               398,718
  400,000                                                                                                                           346,650
                                                                                                                      330,934
                                                             275,981                                     269,139
  300,000                                                                                  239,503
                                                                             235,797
                                                                                                                                       193,564
  200,000                                                                                                   137,179     153,839
                                                                                              105,609
  100,000                                         49,798                        64,312
                    35,200         42,702                        38,227

       0
                  FY 96         FY 97          FY 98          FY 99          FY 00          FY 01         FY 02        FY 03         FY 04

 Source: Collection Report 5000-2.

Figure 16. Liens Filed by the CFf and ACS. After rising steadily since FY 1999, the total
number of liens filed in FY 2004 decreased by 2 percent due to a 5 percent decrease in liens filed
by the CFf.
                                                              CFf                                       ACS

  800,000


  700,000

                  261,027
  600,000


  500,000
                                176,926                                                                                              256,595
                                                                                                                      253,053
  400,000
                                                                                                         245,734
                                                99,402                                     211,367
  300,000
                  489,198
                                                               23,180        141,202
  200,000
                                366,687
                                               283,353                                                                291,263       277,797
                                                                                           214,799       236,775
  100,000
                                                              144,687        146,315

            0
                   FY 96         FY 97          FY 98          FY 99          FY 00          FY 01        FY 02        FY 03         FY 04

 Source: Collection Report 5000-23 and the Automated Lien System.



                                                                                                                                            Page 28
                        Trends in Compliance Activities Through Fiscal Year 2004

Figure 17. Levies Issued by the CFf and ACS. The overall trend is that an increasing number
of levies have been issued by the ACS and the CFf since FY 2000.
                                                  CFf                                                   ACS
 4,000,000

 3,500,000                  2,968,489


 3,000,000     2,409,891


 2,500,000
                                          2,029,928

 2,000,000
                                                                                                                                            1,861,467

 1,500,000                                                                                                                  1,538,094

                                                                                                            1,140,487
 1,000,000                                                                                    533,405
                                                            397,656
                                                                               144,881
  500,000                  690,928
              699,035                   473,481       106,747         74,897             140,675        143,255         142,750         168,146
          0
                FY 96        FY 97         FY 98            FY 99          FY 00              FY 01           FY 02          FY 03           FY 04

 Source: Collection Report 5000-23 and Customer Service Activity Report.

Figure 18. Number of Seizures Made Each Fiscal Year. The number of seizures made in
FY 2004 continued the upward trend since FY 2000 but is still only about 4 percent of the
seizures made in FY 1996.
 12,000
              10,449
                           10,090
 10,000


  8,000


  6,000


  4,000
                                         2,307
  2,000

                                                           161                                234             296            399              440
                                                                               74
      0
              FY 96        FY 97         FY 98            FY 99           FY 00             FY 01           FY 02           FY 03            FY 04

 Source: Collection Report 5000-23 and IRS Manual Reconciliation of Seizure Logs.




                                                                                                                                                  Page 29
                      Trends in Compliance Activities Through Fiscal Year 2004

Figure 19. Examination Coverage of All Tax Returns – Percentage Change From FY 1996.
While the examination coverage of tax returns is still below the level in FY 1999, the growth in
examination coverage again outpaced the growth in returns filed during FY 2004.
                                               Returns Filed      Returns Examined

 20%

 10%

   0%

 -10%

 -20%

 -30%

 -40%

 -50%

 -60%

 -70%
          96




                        97




                                      98




                                                99




                                                          00




                                                                     01




                                                                               02




                                                                                           03




                                                                                                      04
        19




                      19




                                    19




                                              19




                                                        20




                                                                   20




                                                                             20




                                                                                         20




                                                                                                    20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 20. Revenue Agent Results on U.S. Individual Income Tax Returns (Forms 1040),
Excluding Training Returns – Percentage Change From FY 1996. The hours per return
increased and dollars per return decreased during FY 2004, resulting in a combined effect of
decreased dollars per hour during FY 2004.
                              Hours Per Return          Dollars Per Hour            Dollars Per Return
 200%



 150%



 100%



  50%



   0%



 -50%
               1996          1997      1998      1999      2000      2001      2002        2003      2004

 Source: TIGTA Analysis of Examination Table 37.




                                                                                                         Page 30
                  Trends in Compliance Activities Through Fiscal Year 2004

Figure 21. Revenue Agent Results on Corporate Income Tax Returns, Excluding Training
Returns – Percentage Change From FY 1996. The hours per return and dollars per return
increased during FY 2004. The combined effect is that dollars per hour also increased during
FY 2004.
                        Hours Per Return           Dollars Per Hour    Dollars Per Return

 300%


 250%


 200%


 150%


 100%


  50%


    0%


 -50%
           1996       1997       1998      1999      2000      2001   2002     2003      2004

 Source: TIGTA Analysis of Examination Table 37.

Figure 22. Revenue Agent Results on Other Types of Tax Returns, Excluding Training
Returns – Percentage Change From FY 1996. The hours per return and dollars per return
increased during FY 2004. The combined effect is that dollars per hour also increased during
FY 2004.
                        Hours Per Return           Dollars Per Hour     Dollars Per Return
 250%



 200%



 150%



 100%



  50%



   0%
           1996       1997       1998      1999      2000      2001   2002     2003      2004

 Source: TIGTA Analysis of Examination Table 37.


                                                                                             Page 31
                   Trends in Compliance Activities Through Fiscal Year 2004

Figure 23. Tax Compliance Officer Results on Forms 1040, Excluding Training Returns –
Percentage Change From FY 1996. The hours per return increased and dollars per return
decreased during FY 2004. The combined effect is that dollars per hour decreased during
FY 2004.
                                Hours Per Return          Dollars Per Hour      Dollars Per Return

 200%



 150%



 100%



  50%



   0%



 -50%
           1996          1997        1998       1999        2000       2001     2002       2003      2004

 Source: TIGTA Analysis of Examination Table 37.

Figure 24. Number of Forms 1040 Examined Face-to-Face or Through Correspondence.
The total number of face-to-face examinations of individuals decreased by 3 percent and those
conducted through correspondence increased by 24 percent in FY 2004. However, greater
emphasis is being placed on examinations of individuals with income of $100,000 and over, and
those increased by 6 percent for face-to-face and by 67 percent for correspondence.
                                        Individuals Under $100,000; Face-to-face
                                        Individuals Under $100,000; Correspondence
                                        Individuals $100,000 and over; Face-to-face
                                        Individuals $100,000 and over; Correspondence
  1,400,000

  1,200,000

  1,000,000

    800,000

    600,000

    400,000

    200,000

          0
                  1996      1997         1998      1999        2000      2001    2002      2003      2004

 Source: TIGTA Analysis of Examination Table 37.

                                                                                                      Page 32
                  Trends in Compliance Activities Through Fiscal Year 2004

Figure 25. Percentage of Forms 1040 Examined Face-to-Face or Through Correspondence.
During FY 2004, the coverage rate for face-to-face examinations of non-business individual
income tax returns went down for all types of forms and income categories. Business individual
income tax returns had higher coverage for all income categories, but especially for those with
income of $100,000 and over. The coverage rate for correspondence examinations of individual
income tax returns went up for all categories except for the simple Form 1040A.
 2.50%
                                                                                          Face to Face -
                                                                                          Income Under
 2.00%                                                                                    $100,000

                                                                                          Face to Face -
 1.50%                                                                                    Income $100,000
                                                                                          & Over

                                                                                          Correspondence -
 1.00%                                                                                    Income Under
                                                                                          $100,000

 0.50%                                                                                    Correspondence -
                                                                                          Income $100,000
                                                                                          & Over
 0.00%
           1996   1997       1998    1999    2000     2001   2002   2003    2004

 Source: TIGTA Analysis of Examination Table 37.

Figure 26. Number of Forms 1040 Examined by Compliance Center Correspondence.
During FY 2004, the number of examinations that Compliance Centers conducted by
correspondence increased for all categories of tax returns. The fluctuation for examinations of
non-business tax returns with income under $25,000 was largely based on the number of Earned
Income Tax Credit examinations.
            809,604
 600,000

                                                                                             All Non-Business
 500,000                                                                                     < $25,000


 400,000                                                                                     All Non-Business
                                                                                             $25,000 or More
 300,000

                                                                                             All Business
 200,000                                                                                     <$25,000


 100,000                                                                                     All Business
                                                                                             $25,000 or More

      0
           1996       1997    1998    1999     2000     2001    2002       2003    2004

 Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                      Page 33
                        Trends in Compliance Activities Through Fiscal Year 2004

Figure 27. Number of Forms 1040 Examined by Field Offices. During FY 2004, the number
of examinations conducted by field offices decreased for tax returns with non-business income
and increased for tax returns with business income. Examinations of business tax returns with
income $100,000 and over increased by 27 percent during FY 2004.
 275,000
                                                                                           All Non-Business
 250,000                                                                                   < $25,000

 225,000
                                                                                           All Non-Business
 200,000                                                                                   $25,000 -
                                                                                           $99,999
 175,000                                                                                   All Non-Business
                                                                                           $100,000 & Over
 150,000

 125,000                                                                                   All Business
                                                                                           <$25,000
 100,000

  75,000                                                                                   All Business
                                                                                           $25,000 -
  50,000                                                                                   $99,999
                                                                                           All Business
  25,000                                                                                   $100,000 & Over
          0
               1996     1997      1998      1999     2000   2001   2002   2003    2004

 Source: TIGTA Analysis of IRS Data Book Information.

Figure 28. Percentage of Forms 1040 Examined. This shows the comparison in examination
rates (total correspondence and face-to-face) for tax returns with business or farm income and
those under $100,000 and $100,000 and over without any business or farm income. The
percentage examined for all of the categories increased during FY 2004.
 4.0%
                                                                                             1040 Non-
 3.5%                                                                                        business or
                                                                                             Farm $100,000
 3.0%
                                                                                             & Over
                                                                                             1040 Non-
 2.5%                                                                                        business or
                                                                                             Farm Under
 2.0%                                                                                        $100,000
                                                                                             1040 with
 1.5%                                                                                        Schedule C
                                                                                             Business
 1.0%                                                                                        Income
                                                                                             1040 with
 0.5%                                                                                        Schedule F
                                                                                             Farm Income
 0.0%
          96




                   97




                             98




                                           99




                                                     00




                                                              01




                                                                     02




                                                                             03




                                                                                      04
        19




                 19




                           19




                                         19




                                                   20




                                                            20




                                                                   20




                                                                           20




                                                                                    20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                   Page 34
                                               Trends in Compliance Activities Through Fiscal Year 2004

Figure 29. Percentage Examined – Forms 1040 With No Business or Farm Income. The
percentage of Forms 1040 examined increased during FY 2004 for all categories except
Forms 1040A. Most of the increases were due to large increases in the number of examinations
conducted by Compliance Center employees.
  3.0%                                                                                                                                         1040A
                                                                                                                                               Under
                                                                                                                                               $25,000
  2.5%

                                                                                                                                               1040
                                                                                                                                               Under
  2.0%
                                                                                                                                               $25,000

  1.5%
                                                                                                                                               1040
                                                                                                                                               $25,000-
                                                                                                                                               49,999
  1.0%
                                                                                                                                               1040
                                                                                                                                               $50,000-
  0.5%                                                                                                                                         99,999

                                                                                                                                               1040
  0.0%                                                                                                                                         $100,000
                                                                                                                                               & Over
                                   96




                                              97




                                                        98




                                                                    99




                                                                               00




                                                                                         01




                                                                                                       02




                                                                                                                     03




                                                                                                                                   04
                                 19




                                            19




                                                      19




                                                                  19




                                                                             20




                                                                                       20




                                                                                                     20




                                                                                                                   20




                                                                                                                                 20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 30. Examination Coverage of Non-business Forms 1040 – Under $100,000. The
number of non-business tax returns filed with income under $100,000 dropped off slightly in
FY 2004 after steadily increasing since FY 1996. During FY 2004 the examination coverage
rate for these returns increased by 14 percent due to a large increase in the number of
examinations conducted by Compliance Center employees.
                                                             Returns Filed                           Returns Examined
                               112                                                                                                             1,800

                                                                                                                                               1,600




                                                                                                                                                       Returns Examined (in Thousands)
                               110
 Returns Filed (in Millions)




                                                                                                                                               1,400
                               108
                                                                                                                                               1,200
                               106                                                                                                             1,000

                               104                                                                                                             800

                                                                                                                                               600
                               102
                                                                                                                                               400
                               100
                                                                                                                                               200

                                98                                                                                                             0
                                       96




                                                 97




                                                           98




                                                                       99




                                                                                  00




                                                                                                01




                                                                                                              02




                                                                                                                            03




                                                                                                                                          04
                                     19




                                               19




                                                         19




                                                                     19




                                                                                20




                                                                                              20




                                                                                                            20




                                                                                                                          20




                                                                                                                                        20




 Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                                                               Page 35
                                                 Trends in Compliance Activities Through Fiscal Year 2004

Figure 31. Examination Coverage of Non-business Forms 1040 – $100,000 and Over. The
number of non-business tax returns filed with income $100,000 and over has been relatively
constant since FY 2002. During FY 2004 the examination coverage rate for these returns
increased by 43 percent due to a large increase in the number of examinations conducted by
Compliance Center employees.
                                                                 Returns Filed                   Returns Examined
                                12                                                                                                                               240




                                                                                                                                                                       Returns Examined (in Thousands)
                                10
  Returns Filed (in Millions)




                                                                                                                                                                 190

                                 8
                                                                                                                                                                 140
                                 6
                                                                                                                                                                 90
                                 4

                                                                                                                                                                 40
                                 2


                                 0                                                                                                                               -10
                                       96




                                                   97




                                                                98




                                                                             99




                                                                                     00




                                                                                            01




                                                                                                        02




                                                                                                                     03




                                                                                                                                04
                                     19




                                                 19




                                                              19




                                                                           19




                                                                                   20




                                                                                          20




                                                                                                      20




                                                                                                                   20




                                                                                                                              20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 32. Examination Coverage of Forms 1040 With Business Income (Excluding
Farms). During FY 2004, the total number of individual income tax returns filed with business
income increased as did the percent examined in each of the categories. These examination
coverage increases were largely due to increases in the number of examinations conducted by
field examination employees, especially those tax returns showing higher incomes.
                                5%                                                                                        9,000

                                                                                                                                                                 TGR
                                                                                                                                                                 $100,000
                                4%                                                                                        8,500
                                                                                                                                  Returns Filed (in Thousands)




                                                                                                                                                                 & Over
 Percent Examined




                                                                                                                                                                 TGR
                                3%                                                                                        8,000                                  $25,000-
                                                                                                                                                                 $99,999

                                2%                                                                                        7,500                                  TGR
                                                                                                                                                                 Under
                                                                                                                                                                 $25,000
                                1%                                                                                        7,000
                                                                                                                                                                 Sch C
                                                                                                                                                                 Returns
                                                                                                                                                                 Filed
                                0%                                                                                        6,500
                                      96



                                             97



                                                         98



                                                                      99



                                                                              00



                                                                                     01



                                                                                           02



                                                                                                   03



                                                                                                              04
                                     19



                                            19



                                                        19



                                                                     19



                                                                             20



                                                                                   20



                                                                                          20



                                                                                                 20



                                                                                                             20




Source: TIGTA Analysis of IRS Data Book Information. TGR = Total Gross Receipts.


                                                                                                                                                                 Page 36
                                              Trends in Compliance Activities Through Fiscal Year 2004

Figure 33. Examination Coverage of Forms 1040 With Farm Income. The number of
Forms 1040 filed with farm income continued to decrease in FY 2004. There was an increase in
examination coverage due to increases in the number of Revenue Agent examinations of these
tax returns.
                                                                Returns Filed                     Returns Examined
                           900                                                                                                                     20

                           800                                                                                                                     18
  Returns Filed (in Thousands)




                                                                                                                                                        Returns Examined (in Thousands)
                           700                                                                                                                     16
                                                                                                                                                   14
                           600
                                                                                                                                                   12
                           500
                                                                                                                                                   10
                           400
                                                                                                                                                   8
                           300
                                                                                                                                                   6
                           200                                                                                                                     4
                           100                                                                                                                     2
                                  0                                                                                                                0
                                         96




                                                 97




                                                         98




                                                                       99




                                                                                   00




                                                                                             01




                                                                                                         02




                                                                                                                        03




                                                                                                                                       04
                                      19




                                              19




                                                      19




                                                                    19




                                                                                20




                                                                                          20




                                                                                                      20




                                                                                                                     20




                                                                                                                                    20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 34. Examination Coverage of All Corporate Income Tax Returns – Percentage
Change From FY 1996. The number of corporate tax returns filed continued the steady
increase during FY 2004. The number of returns examined decreased for all corporate tax return
categories except for those filed with assets of $10 million and over. Overall, 1 in 182 corporate
tax returns was examined in FY 2003; this decreased to 1 in 245 in FY 2004.
                                                              Returns Filed                          Returns Examined
            40%

            20%

                                 0%

  -20%

  -40%

  -60%

  -80%

 -100%
                                        96




                                                97




                                                         98




                                                                         99




                                                                                     00




                                                                                                01




                                                                                                                02




                                                                                                                               03




                                                                                                                                              04
                                      19




                                              19




                                                       19




                                                                       19




                                                                                   20




                                                                                              20




                                                                                                              20




                                                                                                                             20




                                                                                                                                            20




 Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                                                               Page 37
                 Trends in Compliance Activities Through Fiscal Year 2004

Figure 35. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets Under $10 Million. During FY 2004, the percentage of corporate tax returns with no
balance sheet or assets under $10 million that were examined decreased.
 18%
                                                                                Assets
                                                                                $5M -
 16%                                                                            $9.9M
 14%                                                                            Assets
                                                                                $1M -
 12%                                                                            $4.9M

 10%                                                                            Assets
                                                                                $250,000 -
  8%                                                                            $0.9M

                                                                                Assets
  6%
                                                                                Under
                                                                                $250,000
  4%
                                                                                No
  2%                                                                            Balance
                                                                                Sheet
  0%
         96



                97



                        98



                                 99



                                          00



                                                   01



                                                          02



                                                                 03



                                                                        04
       19



              19



                      19



                               19



                                        20



                                                 20



                                                        20



                                                               20



                                                                      20
Source: TIGTA Analysis of IRS Data Book Information.


Figure 36. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets $10 Million and Over. During FY 2004, the percentage of corporate tax returns
examined in the asset classes $10 million and over increased between 3 and 10 percent.
 60%
                                                                                 Assets
                                                                                 $250M &
 50%                                                                             Over


 40%                                                                             Assets
                                                                                 $100M -
                                                                                 $249.9M
 30%
                                                                                 Assets
                                                                                 $50M -
 20%
                                                                                 $99.9M


 10%                                                                             Assets
                                                                                 $10M -
                                                                                 $49.9M
  0%
         96



                97



                        98



                                 99



                                          00



                                                   01



                                                          02



                                                                 03



                                                                        04
       19



              19



                      19



                               19



                                        20



                                                 20



                                                        20



                                                               20



                                                                      20




Source: TIGTA Analysis of IRS Data Book Information.




                                                                                    Page 38
                                                                           Trends in Compliance Activities Through Fiscal Year 2004

Figure 37. Examination Coverage of Corporations With Assets Under $10 Million. The
number of corporate tax returns filed with assets under $10 million dropped less than 1 percent
during FY 2004, but the number of tax returns examined decreased by 46 percent.
                                                                                     Returns Filed                   Returns Examined
                                2,600                                                                                                               100




                                                                                                                                                                                          Returns Examined (in Thousands)
                                2,550                                                                                                               90
 Returns Filed (in Thousands)




                                2,500                                                                                                               80
                                                                                                                                                    70
                                2,450
                                                                                                                                                    60
                                2,400
                                                                                                                                                    50
                                2,350
                                                                                                                                                    40
                                2,300
                                                                                                                                                    30
                                2,250                                                                                                               20
                                2,200                                                                                                               10
                                2,150                                                                                                               0
                                                                      96




                                                                              97




                                                                                     98




                                                                                               99




                                                                                                       00




                                                                                                               01




                                                                                                                        02




                                                                                                                                  03




                                                                                                                                           04
                                                                    19




                                                                            19




                                                                                   19




                                                                                             19




                                                                                                     20




                                                                                                             20




                                                                                                                      20




                                                                                                                                20




                                                                                                                                         20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 38. Examination Coverage of Corporations With Assets $10 Million and Over.
During FY 2004, the number of corporate tax returns filed with assets $10 million and over
decreased 4 percent while the number of returns examined increased 34 percent.
                                                                                   Returns Filed                    Returns Examined
                                                               62                                                                               16

                                                               60




                                                                                                                                                        Returns Examined (in Thousands)
                                Returns Filed (in Thousands)




                                                                                                                                                14
                                                               58

                                                               56                                                                               12
                                                               54

                                                               52                                                                               10

                                                               50
                                                                                                                                                8
                                                               48

                                                               46                                                                               6
                                                                      96




                                                                              97




                                                                                     98




                                                                                              99




                                                                                                       00




                                                                                                              01




                                                                                                                       02




                                                                                                                                03




                                                                                                                                          04
                                                                    19




                                                                            19




                                                                                   19




                                                                                            19




                                                                                                     20




                                                                                                            20




                                                                                                                     20




                                                                                                                              20




                                                                                                                                        20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                                                Page 39
                                                Trends in Compliance Activities Through Fiscal Year 2004

Figure 39. Examination Coverage of U.S. Income Tax Return for an S Corporation
(Forms 1120S). The upward trend in the number of Forms 1120S filed continued in FY 2004,
with a 6 percent increase from FY 2003. During the same time period, the number of
examinations decreased by 34 percent.
                                                             Returns Filed                   Returns Examined
                                4,000                                                                                    35




                                                                                                                              Returns Examined (in Thousands)
                                3,500                                                                                    30
 Returns Filed (in Thousands)




                                3,000
                                                                                                                         25
                                2,500
                                                                                                                         20
                                2,000
                                                                                                                         15
                                1,500
                                                                                                                         10
                                1,000

                                 500                                                                                     5

                                   0                                                                                     0
                                           96




                                                    97




                                                            98




                                                                       99




                                                                                00




                                                                                        01




                                                                                                 02




                                                                                                           03




                                                                                                                   04
                                        19




                                                 19




                                                         19




                                                                    19




                                                                             20




                                                                                     20




                                                                                              20




                                                                                                        20




                                                                                                                20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 40. Examination Coverage of Partnership Income Tax Returns. The number of
partnership tax returns filed continued to increase at the rate of about 100,000 per year since
FY 1996 to 2.4 million in FY 2004. During FY 2004, the number of returns examined decreased
21 percent, only 1 out of every 386 partnership returns is examined.
                                                             Returns Filed                   Returns Examined
                                3,000                                                                                    25




                                                                                                                                        Returns Examined (in Thousands)
                                2,500
 Returns Filed (in Thousands)




                                                                                                                         20

                                2,000
                                                                                                                         15

                                1,500

                                                                                                                         10
                                1,000

                                                                                                                         5
                                  500


                                    0                                                                                    0
                                           96




                                                    97




                                                            98




                                                                        99




                                                                                00




                                                                                        01




                                                                                                 02




                                                                                                           03




                                                                                                                   04
                                        19




                                                 19




                                                         19




                                                                     19




                                                                             20




                                                                                     20




                                                                                              20




                                                                                                        20




                                                                                                                20




 Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                                        Page 40
                                                  Trends in Compliance Activities Through Fiscal Year 2004

Figure 41. Examination Coverage of Fiduciary Income Tax Returns. During FY 2004, the
number of income tax returns filed by estates and trusts increased slightly, but the number of tax
returns examined decreased by 27 percent. As a result, only 1 out of every 835 fiduciary income
tax returns is examined.
                                                              Returns Filed                   Returns Examined
                                4,500                                                                                      8
                                4,000                                                                                      7




                                                                                                                               Returns Examined (in Thousands)
 Returns Filed (in Thousands)




                                3,500                                                                                      6
                                3,000
                                                                                                                           5
                                2,500
                                                                                                                           4
                                2,000
                                                                                                                           3
                                1,500
                                1,000                                                                                      2

                                 500                                                                                       1

                                       0                                                                                   0
                                             96




                                                      97




                                                              98




                                                                         99




                                                                                 00




                                                                                         01




                                                                                                    02




                                                                                                             03




                                                                                                                     04
                                           19




                                                    19




                                                            19




                                                                       19




                                                                               20




                                                                                       20




                                                                                                  20




                                                                                                           20




                                                                                                                   20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 42. Examination Coverage of Employment Tax Returns. During FY 2004, the
number of employment tax returns filed increased by 2 percent and the number of tax returns
examined increased by 8 percent. However, examination coverage is only 0.06 percent.
                                                              Returns Filed                    Returns Examined
                                70.0                                                                                      70




                                                                                                                                                  Returns Examined ( in Thousands)
                                60.0                                                                                      60
  Returns Filed (in Millions)




                                50.0                                                                                      50

                                40.0                                                                                      40

                                30.0                                                                                      30

                                20.0                                                                                      20

                                10.0                                                                                      10

                                 0.0                                                                                      0
                                         96




                                                    97




                                                             98




                                                                       99




                                                                                00




                                                                                        01




                                                                                                  02




                                                                                                           03




                                                                                                                    04
                                       19




                                                  19




                                                           19




                                                                     19




                                                                              20




                                                                                      20




                                                                                                20




                                                                                                         20




                                                                                                                  20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                          Page 41
                                             Trends in Compliance Activities Through Fiscal Year 2004

Figure 43. Examination Coverage of Excise Tax Returns. The number of excise tax returns
filed remained relatively steady, but the number of returns examined increased by 43 percent
during FY 2004.
                                                      Returns Filed                   Returns Examined
                                900                                                                             40




                                                                                                                     Returns Examined (in Thousands)
 Returns Filed (in Thousands)




                                800                                                                             30



                                700                                                                             20



                                600                                                                             10



                                500                                                                             0
                                        96




                                               97




                                                      98




                                                                99




                                                                          00




                                                                                 01




                                                                                          02




                                                                                                   03




                                                                                                           04
                                      19




                                             19




                                                    19




                                                              19




                                                                        20




                                                                               20




                                                                                        20




                                                                                                 20




                                                                                                         20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 44. Examination Coverage of Estate Tax Returns. During FY 2004, the number of
estate tax returns filed decreased by 24 percent and the number of returns examined decreased by
11 percent. As a result, the percentage of Estate Tax Returns examined increased by 1 percent.
                                                        Returns Filed                 Returns Examined
                                140                                                                             14




                                                                                                                     Returns Examined (in Thousands)
 Returns Filed (in Thousands)




                                120                                                                             12

                                100                                                                             10

                                 80                                                                             8

                                 60                                                                             6

                                 40                                                                             4

                                 20                                                                             2

                                  0                                                                             0
                                        96




                                               97




                                                       98




                                                                 99




                                                                          00




                                                                                 01




                                                                                          02




                                                                                                    03




                                                                                                           04
                                      19




                                             19




                                                     19




                                                               19




                                                                        20




                                                                               20




                                                                                        20




                                                                                                  20




                                                                                                         20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                Page 42
                                                   Trends in Compliance Activities Through Fiscal Year 2004

Figure 45. Examination Coverage of Gift Tax Returns. In FY 2004, the number of gift tax
returns filed increased slightly, but the number of returns examined increased by 7 percent.
                                                                          Returns Filed                           Returns Examined
                                350                                                                                                                                3.5




                                                                                                                                                                             Returns Examined (in Thousands)
                                300                                                                                                                                3.0
 Returns Filed (in Thousands)




                                250                                                                                                                                2.5

                                200                                                                                                                                2.0

                                150                                                                                                                                1.5

                                100                                                                                                                                1.0

                                50                                                                                                                                 0.5

                                 0                                                                                                                                 0.0
                                        96




                                                     97




                                                                    98




                                                                                   99




                                                                                               00




                                                                                                          01




                                                                                                                       02




                                                                                                                                        03




                                                                                                                                                       04
                                      19




                                                   19




                                                                  19




                                                                                 19




                                                                                             20




                                                                                                        20




                                                                                                                     20




                                                                                                                                      20




                                                                                                                                                     20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 46. Other Compliance Contacts on Forms 1040. The number of contacts increased
for all types of other compliance contacts during FY 2004. The spike in Math Error cases for
FY 2002 was the result of taxpayer confusion over the Rate Reduction Credit. Over half of the
Math Error cases during FY 2004 were due to child tax credit issues.
                                      14,000,000



                                      12,000,000



                                      10,000,000



                                       8,000,000



                                       6,000,000



                                       4,000,000



                                       2,000,000



                                               0
                                                       1996         1997         1998       1999      2000        2001         2002           2003       2004

                                               1996             1997           1998         1999        2000         2001              2002            2003        2004
                 Math Error                  4,750,771        5,983,944      5,668,906    6,552,290   5,751,462    6,082,967      13,315,765         4,024,981   7,342,484
                 Underreporter               1,930,326        931,354        1,726,098    1,770,695   1,353,545    1,161,901      1,491,139          1,561,068   1,948,363
                 ASFR                        719,913          392,598         426,495     584,142     332,427       333,770           242,637        466,816     1,585,259

 Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities” (dated July 15, 2003) and IRS
 Data Book Information for data after FY 2002.

                                                                                                                                                                   Page 43
                       Trends in Compliance Activities Through Fiscal Year 2004

Figure 47. Other Compliance Contacts – Percentage of Coverage on Forms 1040. The
levels of coverage increased for all three types of other compliance contacts for FY 2004. The
Math Error aberration in FY 2002 was explained in Figure 46.
                                   Math Error                        Underreporter                          ASFR
   14.0%

                                                                                                     0.2%
   12.0%
                                                                                                     1.2%
   10.0%


    8.0%                                                                                                                             1.2%
                                                         0.5%
              0.6%         0.3%             0.4%                        0.3%          0.3%                                           1.5%
    6.0%                                                 1.4%
                           0.8%             1.4%                                      0.9%          10.2%
              1.7%                                                      1.1%                                        0.4%
    4.0%                                                                                                            1.2%
                                                         5.2%                                                                        5.6%
                           5.0%             4.6%                        4.5%          4.7%
    2.0%      4.0%
                                                                                                                    3.1%

    0.0%
              1996         1997             1998         1999          2000           2001           2002           2003             2004

 Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities” (dated July 15, 2003) and IRS
 Data Book Information for data after FY 2002.

Figure 48. Numbers and Percentages of Other Compliance Contacts on Forms 1040. This
chart shows the actual numbers and percentages of other compliance contacts on individual types
of tax returns. The FY 2002 Math Error aberration was explained in Figure 46 comments.
                               FY              FY          FY          FY          FY          FY             FY          FY            FY
                              1996            1997        1998        1999        2000        2001           2002        2003          2004
Math Error                   4,750,771       5,983,944   5,668,906   6,552,290   5,751,462   6,082,967   13,315,765     4,024,981     7,342,484
       Coverage Rate               4.01%        4.97%       4.63%       5.25%       4.53%       4.70%         10.22%        3.08%        5.59%

Underreporter                1,930,326        931,354    1,726,098   1,770,695   1,353,545   1,161,901      1,491,139   1,561,068     1,948,363
       Coverage Rate               1.66%        0.79%       1.43%       1.44%       1.08%       0.91%          1.15%        1.20%        1.49%

ASFR                              719,913     392,598     426,495     584,142     332,427     333,770        242,637       466,816    1,585,259
       Coverage Rate               0.62%        0.33%       0.35%       0.48%       0.27%       0.26%          0.19%        0.36%        1.21%
Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities” (dated July 15, 2003) and IRS
Data Book Information for data after FY 2002.




                                                                                                                                      Page 44
                        Trends in Compliance Activities Through Fiscal Year 2004

Figure 49. Numbers and Percentages of Examinations on Forms 1040. This chart shows the
actual numbers and percentages of examination coverage for these individual types of tax
returns.
                                  FY         FY        FY        FY        FY        FY        FY        FY        FY
                                 1996       1997      1998      1999      2000      2001      2002      2003      2004

Forms 1040A <$25,000
  Returns Examined              921,820    659,094   515,015   600,949   256,650   357,954   289,136   182,222   168,887
        Coverage Rate             2.00%      1.44%     1.14%     1.36%     0.60%     0.86%     0.71%     0.51%     0.50%

Forms 1040 - Non-Business
  Returns Examined <
    $25,000                     155,125    157,978   104,050    76,215    51,567    55,624    90,781   197,005   245,470
         Coverage Rate            1.17%      1.21%     0.81%     0.58%     0.37%     0.40%     0.64%     1.09%     1.26%
  Returns Examined $25,000
    & < $50,000                 259,794    196,489   165,168   103,340    63,742    67,109    71,966    94,825   135,041
         Coverage Rate           0.95%      0.70%     0.58%     0.36%     0.21%     0.22%     0.23%     0.30%     0.43%
  Returns Examined $50,000
    & < $100,000                196,582    140,330   121,384    77,698    51,954    53,433    69,620   105,400   113,944
         Coverage Rate           1.16%      0.77%     0.62%     0.37%     0.23%     0.23%     0.28%     0.41%     0.44%
  Returns Examined
    $100,000 and over           129,320    119,575   100,079    80,038    68,616    64,259    80,483   106,565   151,969
         Coverage Rate           2.85%      2.27%     1.66%     1.14%     0.84%     0.69%     0.75%     0.98%     1.39%

Forms 1040 - Schedule C
  Returns Examined
    < $25,000                   102,558     78,553    60,023    68,450    61,695    69,332    67,876    81,541    92,855
        Coverage Rate            4.21%      3.19%     2.37%     2.69%     2.43%     2.72%     2.67%     3.00%     3.15%
  Returns Examined
    $25,000 & < $100,000         87,691     80,861    58,877    42,391    31,226    34,650    40,530    46,927    53,477
        Coverage Rate            2.85%      2.57%     1.82%     1.30%     0.93%     1.02%     1.18%     1.33%     1.47%
  Returns Examined
    $100,000 and over            71,050     73,049    59,728    44,945    28,781    24,080    29,848    30,738    39,124
        Coverage Rate            4.09%      4.13%     3.25%     2.40%     1.48%     1.20%     1.45%     1.47%     1.86%

Forms 1040 - Schedule F
  Returns Examined
    < $100,000                     7,944     5,868     3,949     2,832     1,384     2,104     1,709     1,997     3,104
        Coverage Rate             1.59%     1.28%     0.93%     0.68%     0.35%     0.55%     0.47%     0.57%     0.91%
  Returns Examined
    $100,000 and over             9,662      7,446     4,507     3,415     2,150     3,211     1,932     2,076     4,003
        Coverage Rate             3.61%     2.75%     1.63%     1.23%     0.80%     1.18%     0.72%     0.78%     1.61%
Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                           Page 45
                     Trends in Compliance Activities Through Fiscal Year 2004

Figure 50. Numbers and Percentages of Examinations on Business Tax Returns. This chart
shows the actual numbers and percentages of examination coverage for these non-individual
types of tax returns.
                                FY       FY       FY      FY       FY       FY       FY       FY         FY
                               1996     1997     1998    1999     2000     2001     2002     2003       2004

Corporations < $10 Million    46,568   56,323   41,818   28,268   18,623   14,332   14,655   13,608     7,294

          Coverage Rate        1.88%    2.22%    1.67%   1.16%    0.77%    0.60%    0.63%    0.58%      0.32%
Corporations $10 Million
and Over                      12,891   12,972   11,830   10,537    9,212    8,718    8,443    7,125     9,523

          Coverage Rate       25.33%   24.29%   21.43%   19.05%   16.30%   15.08%   14.17%   12.08%    16.74%

1120S                         19,490   23,898   25,522   21,169   15,200   12,437   11,646    9,695     6,402

          Coverage Rate        0.92%    1.04%    1.04%   0.81%    0.55%    0.43%    0.39%    0.30%      0.19%

Partnerships                   7,636    9,811   10,082    7,991    6,539    5,070    5,543    7,871     6,226

          Coverage Rate        0.49%    0.59%    0.58%   0.43%    0.33%    0.25%    0.26%    0.35%      0.26%

Fiduciaries                    4,701    5,753    6,890    6,382    7,318    7,070    7,206    6,068     4,438

          Coverage Rate        0.15%    0.18%    0.21%   0.19%    0.22%    0.20%    0.18%    0.17%      0.12%

Employment                    56,195   60,799   40,595   28,898   20,074   17,163   17,252   16,408    17,698

          Coverage Rate        0.20%    0.21%    0.14%   0.10%    0.07%    0.06%    0.06%    0.06%      0.06%

Excise                        32,900   24,701   19,858   12,562   10,294    8,169    8,426    8,756    12,560

          Coverage Rate        4.17%    3.14%    2.48%   1.53%    1.25%    0.96%    1.03%    1.05%      1.49%

Estates                       11,794   11,686   10,451    9,319    8,024    7,707    7,151    7,265     6,455

          Coverage Rate       14.47%   12.90%   10.22%   8.46%    6.89%    6.24%    5.84%    6.38%      7.41%

Gift                           1,934    2,085    2,010    2,369    2,097    2,005    1,899    1,855     1,979

          Coverage Rate        0.89%    0.90%    0.79%   0.91%    0.72%    0.65%    0.63%    0.66%      0.69%
Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                    Page 46
               Trends in Compliance Activities Through Fiscal Year 2004

                                                                               Appendix VI


            Related Treasury Inspector General for Tax Administration
                                 Audit Reports

Prior Compliance Trends Reports:
   ¾ Management Advisory Report: Evaluation of Reduction in the Internal Revenue
     Service’s Compliance Activities (Reference Number 2000-30-075, dated May 2000).
   ¾ Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
     Number 2001-30-175, dated September 2001).
   ¾ Management Advisory Report: Analysis of Trends in Compliance Activities Through
     Fiscal Year 2001 (Reference Number 2002-30-184, dated September 2002).
   ¾ Trends in Compliance Activities Through Fiscal Year 2002 (Reference
     Number 2003-30-078, dated March 2003).
   ¾ Trends in Compliance Activities Through Fiscal Year 2003 (Reference
     Number 2004-30-083, dated April 2004).
Collection Reengineering Reports:
   ¾ The New Risk-Based Collection Initiative Has the Potential to Increase Revenue and
     Improve Future Collection Design Enhancements (Reference Number 2004-30-165,
     dated September 2004).
   ¾ The Revised Collection Case Selection Criteria That Expedites Trust Fund Workload to
     the Field Appears Effective (Reference Number 2004-30-173, dated September 2004).
   ¾ Implementation of the Collection Field Function Consultation Initiative Was Carefully
     Coordinated, but Some Aspects Could Be Enhanced (Reference Number 2005-30-011,
     dated November 2004).
Examination Reengineering Reports:
   ¾ The Office Audit Redesign Pilot Was Effective in Meeting Its Goals, but Its
     Implementation Needs to Be Monitored (Reference Number 2004-30-033, dated
     January 2004).
   ¾ Many Aspects of the Field Examination Reengineering Pilot Were Effectively
     Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout
     (Reference Number 2004-30-116, dated June 2004).
   ¾ The High Income Taxpayer Strategy Was Effectively Implemented, Although Its Success
     Still Needs to Be Determined (Reference Number 2005-30-012, dated November 2004).


                                                                                     Page 47
